No. 20-542
IN THE

~upreme Qtourt of tbe Wniteb ~tate~
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
v.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL.,
and PENNSYLVANIA DEMOCRATIC PARTY

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Reply in Support of Motion for Expedited Consideration of
the Petition for a Writ of Certiorari and for Expedited Merits Briefing and Oral
Argument in the Event that the Court Grants the Petition in Republican Party of

Pennsylvania v. Boockvar, No. 20-542, was served via electronic mail on all parties
required:
Donald B. Verrilli, Jr.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001
(202) 220-1101
donald.verrilli@mto.com

Daniel T. Brier
MYERS, BRIER & KELLY, LLP
425 Spruce Street, Suite 200
Scranton, PA 18503
(570) 342-6100
dbrier@mbkla w .com

Counsel for Respondent Pennsylvania
Democratic Party

Counsel for Respondent Secretary of
State Boockvar

J. Bart DeLone
PENNSYLVANIA OFFICE OF
ATTORNEY GENERAL
Strawberry Square
320 Market Street, 15th Floor
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov

Richard P. Limburg
OBERMAYER REBMANN MAXWELL
& HIPPELLLP
1500 Market Street, Suite 3400
Philadelphia, PA 19102
(215) 665-3000
richard.limburg@obermayer.com

Counsel for Respondent Secretary of
State Boockvar

Counsel for Respondents Sen. Joseph
Scarnati and Sen. Jake Corman

Zachary M. Wallen
CHALMERS & ADAMS LLC
301 South Hills Village Drive
Suite LL200-420
Pittsburgh, PA 15102
(412) 200-0842
zwallen@cpblawgroup.com

Krista-Ann M. Staley
BABST CALLAND
Two Gateway Center
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 394-5400
kstaley@babstcalland.com

Counsel for Respondents Speaker Bryan Counsel for Respondents Boards of
Cutler and Rep. Kerry Benninghoff
Elections of Armstrong, Bedford, Blair,
Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna,
Lawrence,
Lebanon,
Montour,
Northumberland, Venango, and York
Counties
Frank J. Lavery, Jr.
LAVERYLAW
225 Market Street, Suite 304
Harrisburg, PA 17108-1245
(717) 233-6633
flavery@laverylaw.com

Joseph M. Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704
(570) 287-3400
jcosgrove@getyourselfagoodlawyer.com

Counsel for Respondents Boards of Counsel for Respondent Luzerne County
Elections of Franklin and Perry Counties Board of Elections

Robert Grimm
SWARTZ CAMPBELL
600 Grant Street, Suite 4 750
Pittsburgh, PA 15219
(412) 232-9800
rgrimm@swartzcampbell.com

Michele D. Hangley
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
One Logan Square, 27th Floor
Philadelphia, PA 19103
(215) 496-7061
mhangley@hangley.com

Counsel for Respondent Washington
County Board of Elections

Counsel for Respondent Boards of
Elections of Bucks, Chester,
Montgomery, and Philadelphia
Counties

Allan Joseph Opsitnick
OPSITNICK & ASSOCIATES
564 Forbes Avenue #1301
Pittsburgh, PA 15219
(412) 391-3299
aopsitnick@opsitnickslaw.com

Brian J. Taylor
KING, SPRY, HERMAN, FREUND &
FAUL
One West Broad St., Ste. 700
Bethlehem, PA 18018
(610) 332-0390
btaylor@kingspry.com

Counsel for Respondent Allegheny
County Board of Elections

Counsel for Respondent Northampton
County Board of Elections

Carl John Zwick
ZWICK LAW
171 Beaver Drive
PO Box 1127
Dubois, PA 15801
(814) 371-6400
cjz@zwick-law.com

Christina Lee Hausner
150 N. Queen Street, Suite 714
Lancaster, PA 17603
(717) 735-1584
chausner@co.lancaster.pa.us

Counsel for Respondent Jefferson
County Board of Elections

Counsel for Respondent Lancaster
County Board of Elections

Christopher P. Gabriel
535 Smithfield Street, Suite 700
Pittsburgh, PA 15222-2310
(412) 395-1275
cgabriel@cfwws.com

David Allen Regoli
333 Freeport Street. Suite 201
New Kensington, PA 15068
(724) 335-0500
regoli@regolila w .com

Counsel for Respondents Boards of
Elections of Clarion and Tioga Counties

Counsel for Respondent Westmoreland
County Board of Elections

----- - - - - - - -

Edward David Rogers
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8144
rogerse@ballardspahr.com

Gerard J. Geiger
NEWMAN WILLIAMS, P.C.
712 Monroe Street
Stroudsburg, PA 18360
(570) 421-9090
ggeiger@newmanwilliams.com

Counsel for Respondent Delaware
County Board of Elections

Counsel for Respondents Boards of
Elections of Carbon, Monroe, Pike,
Snyder, and Wayne Counties

H. William White III
124 West Diamond St
Butler, PA 16003
(724) 284-5100
wwhite@co.butler.pa.us

Jonathan Lee DeWald
433 Market Street
Williamsport, PA 17701
(570) 326-6555
jdewald@mpvhlaw.com

Counsel for Respondent Butler County
Board of Elections

Counsel for Respondent Union County
Board of Elections

Larry E. Coploff
PO Box 389
Lock Haven, PA 17745
(570) 748-7771
lec@crwlaw.net

Molly Ruth Mudd
111 Baltimore Street
Gettysburg, PA 17325
(717) 337-5911
mmudd@adamscounty.us

Counsel for Respondent Clinton County
Board of Elections

Counsel for Respondent Adams County
Board of Elections

Nathan W. Karn
401-03 Allegheny Street
PO Box 415
Hollidaysburg, PA 16648
(814) 695-7581
nkarn@eveyblack.com

Robert D. Schaub
ROSENN JENKINS & GREENWALD
LLP
15 South Franklin Street
Wilkes-Barre, PA 18612
(570) 826-5652
rschaub@rjglaw.com

Counsel for Respondent Blair County
Board of Elections

Counsel for Respondent Susquehanna
County Board of Elections

Robert Eugene Grimm
2698 Morgantown Road
Smithfield, PA 15478
(724) 569-2819
lawyergrimm@hotmail.com

Thomas M. Caffrey
P.O. Box A
Coplay, PA 18037-0200
(610) 434-4418
tcaffrey@rcn.com

Counsel for Respondent Greene County
Board of Elections

Counsel for Respondent Lehigh County
Board of Elections

Thomas George Wagner
MEYER WAGNER BRAUN & KRAUS
115 Lafayette Street
Saint Marys, PA 15857
(814) 781-3445
twagner@mwbklaw.com

Thomas R. Shaffer
GLASSMIRE & SHAFFER LAW
5 East Third Street
Coudersport, PA 16915
(814) 274-7292
tomshaffer@verizon.net

Counsel for Respondent Elk County
Board of Elections

Counsel for Respondent Potter County
Board of Elections

Thomas S. Talarico
TALARICO & ASSOCIATES
510 Cranberry Street, Suite 301
Erie, PA 16507
(814) 459-44 72
ttalarico@nwpalawyers.com

William Gleason Barbin
206 Main Street
Johnstown, PA 15901
(814) 535-5561
britanderson2002@yahoo.com

Counsel for Respondent Erie County
Board of Elections

Counsel for Respondent Cambria
County Board of Elections

William J. Madden
165 Euclid Avenue
Sharon, PA 16146
(724) 342-1300
wjmpc@verizon.net

Christine D. Steere
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 101
Media, PA 19063
(610) 892-2732
csteere@dmvlawfirm.com

Counsel for Respondent Mercer County
Board of Elections

Counsel for Respondent Berks County
Board of Elections

Clifford B. Levine
DENTONS COHEN & GRIGSBY P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
clifford.levine@dentons.com

Counsel for Respondent Pennsylvania
Democratic Party

I declare under penalty of perjury that the foregoing is true and correct.

Date: October 27, 2020

